U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


                RECOVERY OF
OPERATION AND MAINTENANCE COSTS,
    COLUMBIA BASIN PROJECT,
     BUREAU OF RECLAMATION

            REPORT NO. 95-I-1383
              SEPTEMBER 1995
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240




MEMORANDUM

TO:                        The Secretary

FROM:                      Wilma A. Lewis
                           Inspector Genera

SUBJECT SUMMARY: Final Audit Report for Your Information - “Recovery of
                 Operation and Maintenance Costs, Columbia Basin
                 Project Bureau of Reclamation” (No. 95-I-1383)

Attached for your information is a copy of the subject final audit report.

The Pacific Northwest Region had not ensured that districts benefiting from
irrigation water provided by the Columbia Basin Project paid the appropriate share
of irrigation operation and maintenance costs, and the Region had not always billed
the districts in a timely manner or assessed penalties and interest charges on
delinquent payments. We estimated that the Federal Government and power users
had paid over $650,000 of the districts’ irrigation operation and maintenance costs
and that the Region did not assess or collect interest of over $70,000 related to
district billings.

The Bureau concurred with our six recommendations. To ensure that the districts
pay the appropriate share of the irrigation operation and maintenance costs, the
Bureau agreed to: assess the districts the full amount of Bureau-incurred overhead
costs; require the districts to pay the irrigation-related costs associated with pump
replacements; compute the amount of operation and maintenance costs applicable
to the districts based on actual direct and indirect costs of performing such work on
the pumps; and document the reasons for and the financial impacts of any
concessions agreed to in negotiations on irrigation operation and maintenance cost
recovery. To correct deficiencies in the billing process, the Bureau established billing
time frames for Regional and field office personnel for processing annual irrigation
operation and maintenance assessments and agreed to assess late payment interest
charges on billings and collect interest charges on late payments.

If you have any questions concerning this matter, please contact me at
(202) 208-5745.



Attachment
                                                                   W-IN-BOR-002-94

             United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                    Headquarters Audits
                                   1550 Wilson Boulevard
                                          Suite 401
                                    Arlington, VA 22209




To:         Assistant Secretary - Water and Science

From:


Subject:    Final Audit Report on the Recovery of Operation and Maintenance
            Costs, Columbia Basin Project, Bureau of Reclamation (No. 95-I-1383)

This report presents the results of our review of the recovery of operation and
maintenance costs on the Columbia Basin Project by the Bureau of Reclamation.
The objective was to determine whether the Pacific Northwest Region’s financial
management practices for recovery of the Project’s reimbursable costs for irrigation
operation and maintenance complied with Reclamation law and Instructions and
adequately protected the Government’s interests. We also followed up on actions
taken to implement a prior report’s recommendations concerning the billing of
irrigation operation and maintenance costs.

We concluded that the Region had not ensured that districts benefiting from the
irrigation water provided by the Project paid the appropriate share of irrigation
operation and maintenance costs and that the Region had not always billed the
districts in a timely manner or assessed penalties and interest charges on delinquent
payments. We estimated that the Federal Government and power users may have
paid over $650,000 of the districts’ irrigation operation and maintenance costs and
that the Region did not assess or collect interest of over $70,000 related to district
billings.

To correct the problems noted, we made six recommendations. To ensure that the
districts pay the appropriate share of the irrigation operation and maintenance costs,
we recommended that the Bureau assess the districts the full amount of Bureau-
incurred overhead costs; require the districts to pay the irrigation-related costs
associated with pump replacements; compute the amount of operation and
maintenance costs applicable to the districts based on actual direct and indirect costs
of performing such work on the pumps; and document the reasons for and the
financial impacts of any concessions agreed to in negotiations on irrigation operation
and maintenance cost recovery. To correct problems in the billing process, we
recommended that the Bureau establish billing time frames for Regional and field
office personnel for processing annual irrigation operation and maintenance
assessments and assess late payment interest charges on all billings and collect
interest charges on all late payments.

The August 30, 1995, response (Appendix 2) to our draft report from the Acting
Commissioner concurred with all six recommendations and was sufficient for us to
consider one recommendation resolved and implemented and five recommendations
resolved but not implemented. Accordingly, the unimplemented recommendations
will be referred to the Assistant Secretary for Policy, Management and Budget for
tracking of implementation, and no further response to the Office of Inspector
General is required (see Appendix 3).

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, the monetary
impact of audit findings (Appendix 1), actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective action has not been taken.



cc:   Commissioner, Bureau of Reclamation
                                       CONTENTS
                                                                                              Page

INTRODUCTION, . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1

 BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
 OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...2
 PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . ...4

 A. RECOVERY OF OPERATION AND
     MAINTENANCE COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4
 B. PROCESSES FOR BILLING AND
     COLLECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8

APPENDICES

 1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . . . 10
 2. RESPONSE FROM ACTING COMMISSIONER, BUREAU
      OF RECLAMATION, TO DRAFT REPORT . . . . . . . . . . . . . . . . . 11
 3. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . . . 18
                                             INTRODUCTION

    BACKGROUND

The Bureau of Reclamation’s Pacific Northwest Region is responsible for operating
and maintaining the facilities of the Columbia Basin Project originally called the
Grand Coulee Dam Project, as authorized by the Congress on March 10, 1943.
Essentially, the Region maintains Project facilities that generate power or that
provide water to multiple irrigation districts, creating multipurpose benefits which
include irrigation and fish and wildlife. Project facilities that provide water to a
single irrigation district are maintained by that district. The Bureau has contracted
with irrigation districts to obtain repayment of the Project’s reimbursable
construction, operation, and maintenance costs associated with irrigation. The
Bonneville Power Administration is responsible for the repayment of the
reimbursable construction, operation, and maintenance costs associated with power
production.     Information on the Project’s construction cost allocation and
repayment revenue sources, along with the typical annual operation and maintenance
costs allocated to the various purposes, is summarized as follows:
                                              Irrigation            Power         Other                     Function
                                               Function            Function     Functions                    Totals
                                                                   (Amounts in Millions)

Construction Costs

Repayment Responsibility
  Beneficiaries
  State & Local Agencies
  Irrigation Assistance*
  Settlement Land Revenues
  Nonreimbursable**

        Total

Operation and Maintenance
  Costs for 1992

*Irrigation assistance is the amount of reimbursable irrigation construction costs required by Reclamation law and policy to
be repaid to the U.S. Treasury. When such costs are beyond the ability of the irrigators to pay, the costs are repaid by power
users after they have repaid the power investment debt.

** Nonreimbursable costs are those costs for Federally constructed water and power development projects that are not required
by Reclamation law and policy to be repaid to the U.S. Treasury. The repayment of nonreimbursable costs is borne by the
general taxpayers.



1
 Cost allocation is the distribution of the costs of multiple-purpose projects among the purposes
served, such as irrigation and power, so that project beneficiaries share equitably in the recovery of
costs.

                                                              1
    The Bureau’s master repayment contracts with the irrigation districts require
    repayment of reimbursable construction costs over 50 years and advance payment of
    the annual irrigation operation and maintenance costs in two installments. The
    Bonneville Power Administration reimburses power operation and maintenance costs
    to the Bureau annually and repays power construction costs with interest over a
    50-year period.

    OBJECTIVE AND SCOPE

    The audit objective was to determine whether the Region’s financial management
    practices for recovery of the Project’s reimbursable costs for irrigation operation and
                                                      2
    maintenance complied with Reclamation law and Instructions and adequately
    protected the Government’s interests. Our review was conducted at the Bureau’s
    Pacific Northwest Region, located in Boise, Idaho. As part of the review, we
    followed up on actions taken to implement a prior report’s recommendations
                                                                               3
    concerning the billing of irrigation operation and maintenance costs. Because of
    the deficiencies noted in our previous report, we also reviewed the processes for
    billing irrigation construction costs. We reviewed the 24 Project billings for irrigation
    operation and maintenance (15 billings) and construction costs (9 billings) for
    calendar years 1991 through 1993.

This review was made in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of this audit, we evaluated the Region’s system of
internal controls related to the computing, billing, and collecting of operation,
maintenance, and construction charges to the extent we considered necessary to
accomplish the audit objective. We also determined that the material weakness
reported in the Secretary of the Interior’s fiscal year 1993 Annual Statement and
Report, required by the Federal Managers’ Financial Integrity Act, concerning
inadequate policies and procedures for the recovery of operation and maintenance
program expenses still existed for the Columbia Basin Project. Further, a weakness
in the Region’s processes for billing and collecting Project operation, maintenance,
and repayment costs decreases the amount of Project costs recovered from benefiting
irrigation districts. Our recommendations, if implemented, should rectify these
weaknesses on the Columbia Basin Project.



2
 Reclamation law is a term used to refer to the total body of public laws governing the reclamation
program, beginning with the Reclamation Act of 1902 and including all laws amending and
supplementing the Act.
3
 See "Reeovery of Operation and Maintenance Program Expenses, Bureau of Reclamation”
(No. 92-I-269), dated December 1991, in the Prior Audit Coverage section of this report.



                                                2
PRIOR AUDIT COVERAGE

In December 1991, the Office of Inspector General issued the report “Recovery of
Operation and Maintenance Program Expenses, Bureau of Reclamation”
(No. 92-I-269). The report concluded that the Bureau: (1) either did not bill or did
not bill in a timely manner for reimbursable expenses; (2) did not properly assess
charges for delinquent payments; and (3) did not have necessary guidelines for
operation and maintenance expense allocations to ensure that reimbursement
allocations conformed to Reclamation policies and guidelines. In response to the
recommendations, the Bureau stated that it had issued a September 25, 1991,
memorandum directing the regional offices to comply with Bureau policies and
contractual agreements for issuing billings for operation and maintenance expenses
and for assessing penalties on late payments. The Secretary of the Interior’s fiscal
year 1993 Annual Statement and Report stated that the Bureau plans to issue
guidelines in September 1995 for allocating project operation and maintenance
expenses to address the noted material weaknesses.




                                        3
              FINDINGS AND RECOMMENDATIONS

A. RECOVERY OF OPERATION AND MAINTENANCE COSTS

The Pacific Northwest Region has not ensured that districts benefiting from
irrigation water provided by the Columbia Basin Project pay the appropriate share
of irrigation operation and maintenance costs. Reclamation Instructions and contract
terms require the Region to recover reimbursable operating costs from benefiting
irrigation districts. However, the Region, in determining the recoverable irrigation
operation and maintenance costs, limited the administrative costs and appears to
have understated repayment of some irrigation operation and maintenance costs,
thereby shifting the costs to power users and to the Federal Government. As a
result, the Federal Government and power users may have paid irrigation operation
and maintenance costs of over $650,000 that should have been borne by the
benefiting districts.

The Region incurs costs to operate and maintain facilities that provide irrigation
water to districts and that generate power. By contract, the Bureau recovers the
irrigation operation and maintenance costs through the use of a fixed-rate charge per
acre-foot of water provided by the Project to the districts. This fixed rate is
determined every 5 years and is based on the estimated irrigation operation and
maintenance costs to be incurred and on the amount of water to be diverted to the
districts. At the end of each 5-year period, the actual costs of operating and
maintaining the facilities are reconciled to the cumulative amount of the payments
made by the districts to determine any shortage or surplus. A shortage or a surplus
is added to or deducted from, respectively, the estimated costs for the next 5-year
period.

Current repayment contracts with the districts state, “The costs which make up the
various obligations to be paid by the District(s) to the United States . . . shall
embrace all expenditures required to be made by the United States under the terms
of this contract.” Further, Parts 473 and 491 of Reclamation Instructions require
that an “equitable distribution and assessment of indirect costs to all benefiting
activities” be made and that indirect costs be fully recovered whenever permissible
under contractual agreements. However, the Region’s irrigation operation and
maintenance cost recovery agreement with the districts: (1) used fixed overhead
rates that limited recovery of Bureau-incurred administrative costs; (2) shifted
reimbursement responsibility for some pumping plant costs to power purposes based
on the ratio of current irrigation water provided to pumping plant capacity and
(3) classified pump repairs as construction costs to be partially financed and paid for
by power users and by taxpayers.

Overhead

The agreement between the Region and the districts for the 5-year period ended
December 31, 1994, included provisions that limited administrative overhead costs

                                          4
    to a maximum of 15 percent of direct costs. As a result of these fixed overhead
    rates, power users and the general taxpayers paid about $150,000 of the districts’
    1992 and 1993 administrative overhead costs. This reduction in cost recovery from
    the districts was funded by transfers of overhead costs to the power function
    ($132,000) and to nonreimbursable functions ($18,000).

    Pumping Plant Costs

The agreement also allowed the Region to shift irrigation pumping plant operation
 and maintenance costs to the power function. In the late 1970s and early 1980s, six
new pumps with power generation capabilities were added to the Project to provide
additional energy production capability and increased pumping capacity for future
Project agricultural development. These new pump generators also provide
additional capability to meet irrigation needs; however, the original six pumping units
have the capacity and capability to meet the entire irrigation demand. Furthermore,
no significant acreage of additional Project lands has been developed since 1984, and
the six new pump generators have not directly generated power. However, the
Region agreed with the districts to allocate a portion of the irrigation operation and
maintenance costs for these six original pumps to the power users. During the 5-year
period ended December 31, 1994, we estimated that the Region shifted to the power
function over $1.5 million of the costs to operate and maintain the six original pumps
that could theoretically have supplied all the irrigation water used on Project lands
over the last 40 years. While the Congress has authorized the use of power revenues
to subsidize irrigation construction costs, we are not aware of any authority to
subsidize irrigation operation and maintenance costs. This transfer of pumping plant
costs to the power function appears to have resulted in an annual subsidy to the
districts of as much as $300,000.

Pump Repair Costs

During the most recent 5-year period, the Region also replaced worn components
on a pump at a total cost of $2.3 million. By mutual agreement between the Region
and the districts, the districts paid for only half, or about $1.15 million, of this cost,
even though the water lifted by the pumps was used primarily to meet irrigation
demands. The cost of this capitalized operation and maintenance expense eventually
will be repaid by power users in the form of irrigation assistance, which will be
remitted to the U.S. Treasury over a 40- to 50-year period. Thus, the Government
                                 4                       5
will receive, in present value dollars, about $70,000 from power users in return for
over a $1 million investment to maintain a pump that has essentially provided water
to Project irrigation districts.

4
A financial term referring to the time value of money, which recognizes that interest on money makes
$1 earned in the future worth less than $1 earned today. For example, assuming an interest rate of
8 percent, $1 due in 10 years is worth only $.46 today.
5
    Computed using an assumed interest rate of 7 percent and a 40-year repayment period.


                                                  5
We attempted to determine whether the Region obtained any concessions from the
districts in exchange for these annual operating subsidies. Regional and Project
officials informed us that the districts had made “valuable” operational flexibility
concessions to the Region, in part for these subsidies. The Project office had
numerous files regarding these meetings and discussions. However, no formal
estimates or determinations were made of the financial impacts of the Region’s or
the districts’ concessions. Further, the meetings and discussions regarding
concessions between the Region and the districts were not formally recorded.

Without documentation and financial analyses to evaluate these concessions, we
believe that the Region, in its current discussions concerning the recovery of
operation and maintenance costs, should: (1) attempt to recover all applicable
overhead costs from the district; (2) avoid shifting irrigation operation and
maintenance costs to power users; and (3) ensure that pump repairs resulting from
irrigation use are not funded with power user and Federal funds. Such changes
would accurately allocate the costs of irrigation operation and maintenance to the
functions and recipients that benefit from the expenditures rather than subsidize
irrigation operation and maintenance costs at the expense of Federal taxpayers and
power users.

Recommendations

We recommend that the Commissioner, Bureau of Reclamation, ensure that the
Pacific Northwest Region:

        1. Assesses the districts the full amount of Bureau-incurred overhead costs
relating to the irrigation function, as reflected in the official accounting records for
the Project.

     2. Requires the districts to pay the irrigation-related costs associated with
pump replacements.

        3. Computes the amount of operation and maintenance costs applicable to
the districts based on the actual direct and indirect cost of performing such work on
the pumps.

       4. Documents the reasons for, and the financial impact of, any concessions
agreed to in negotiations on irrigation operation and maintenance cost recovery for
the 1995 through 1999 agreement period and subsequent periods.

Bureau of Reclamation Response

The August 30, 1995, response (Appendix 2) to the draft report from the Acting
Commissioner concurred with the four recommendations.




                                           6
       Recommendation. The Bureau stated that the overhead rate relating to the
irrigation function will be “revised and adjusted’ to reflect the Bureau’s actual
overhead that is associated with operation and maintenance activities.

       Recommendations 2 and 3. The Bureau stated that it will charge, to the
districts, the irrigation-related costs associated with the pump replacement and the
costs of operating and maintaining the pumping plant. The Bureau stated that it
does not agree that the allocation formula and methodology resulted in inappropriate
irrigation subsidies as estimated in our draft report. However, the Bureau said that
it “does believe that a new procedure which assigns actual direct and indirect costs
would provide a greater degree of certainty that irrigation related costs are being
borne by the districts.”

       Recommendation 4. The Bureau stated that it will document and determine
the financial impacts of concessions that result from rate-setting meetings.

Office of Inspector General Comments

Based on the response, we consider the four recommendations resolved but not
implemented. Accordingly, the recommendations will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation.




                                         7
 B. PROCESSES FOR BILLING AND COLLECTION

The Bureau’s Pacific Northwest Region has not always billed the districts in a timely
manner or assessed penalties and interest charges on delinquent payments. In
response to the recommendations made in our December 1991 audit report, the
Bureau issued a directive for its regional offices to comply with Reclamation policies
and contractual agreements for debt collection activities. However, the Pacific
Northwest Region has not complied with this directive in charging districts for the
costs associated with the operation and maintenance and the repayment of irrigation
facilities. As a result, the Region did not assess and collect about $70,400 in late
payment interest penalties during 1991 through 1993.

Billings

 Billing and remittance requirements for the Project are detailed in the districts’
master repayment contracts. Under these contracts, annual operation and
maintenance costs are billed in advance in two installments. The first installment is
due on April 30, and the second installment is due on June 30 of each year.
Reclamation Instructions and accepted business practices also provide for the timely
billing of amounts owed. However, our review of the 15 operation and maintenance
billings for the 3-year period ended December 31, 1993, showed that all the billings
were issued late. According to Regional officials, the current delays in meeting the
contractual billing time frames occurred because of (1) a billing process in which
regionally prepared billings were reviewed by field offices; (2) the Region’s practice
of billing districts on the basis of actual expense information rather than on cost
estimates; and (3) the lack of centralized authority and responsibility for billing the
districts on time. Such delayed billings provided the districts with extra time before
their payments became due, allowing the districts to potentially earn interest on the
funds while increasing the interest costs incurred by the Government (estimated at
$18,000 for the last 3 years) to finance these costs before payment was received.

Penalties and Interest

Although the nine remittances for Project operation and maintenance and repayment
billings issued during the 3-year period ended December 31, 1993, were received late,
the Region had not assessed interest penalties. We found that the Region did not
charge and recover interest charges totaling $47,500 on late irrigation operation and
maintenance payments and $4,900 on late irrigation construction charges. According
to the master repayment contracts with the districts, Project irrigation construction
costs are repaid interest free over a 50-year period, with each installment due on
June 30 of each year. The master repayment contracts with the districts also provide
for the assessment of an interest penalty of one-half of 1 percent a month on late
remittances of repayment or operation and maintenance billings. However, interest
charges of $52,400 were not assessed, according to Regional officials, because of
problems in the Region’s and Project’s billing system and procedures.



                                          8
In our December 1991 report, we found that billings had been delayed and penalties
for late payments had not been assessed, which cost the Government over $47,000,
of which about $30,000 was attributable to the Pacific Northwest Region’s Columbia
Basin Project. At that time, Regional officials attributed billing delays primarily to
a new financial accounting system, which did not provide timely data on actual costs
used to adjust advance billings, and attributed the lack of penalties on delinquent
payments to oversights. However, the billing and collecting deficiencies have not
been corrected and have cost the Federal Government over $100,000 exclusive of
Federal financing costs ($70,400 identified in our current audit and $30,000 in
our 1991 audit).

Recommendations

We recommend that the Commissioner, Bureau of Reclamation, ensure that the
Pacific Northwest Region:

       1. Establishes billing time frames for Regional and field office personnel to
process annual irrigation repayment and operation and maintenance assessments to
meet contractual requirements. If such billings cannot be processed timely because
of a lack of actual expense information, the Region should be required to use
estimated information for billings and adjust to actual costs in future bills.

       2. Assesses late payment interest charges on all billings and collects interest
charges on all late payments, including those identified in our December 1991 report.

Bureau of Reclamation Response

The August 30, 1995, response (Appendix 2) to the draft report from the Acting
Commissioner concurred with the two recommendations.

      Recommendation 1.      The Bureau stated that procedures have been
implemented by the Region and field offices for the timely processing of billings.

       Recommendation 2. The Bureau stated that the Region will assess and collect
interest charges on late payments for billings as provided for in the agreements with
the irrigation districts. In addition, the Bureau stated that it will review the
circumstances regarding the prior billings identified in the report and will initiate
efforts to collect the charges that are attributable to the districts’ actions.

Office of Inspector General Comments

Based on the response, we consider Recommendation 1 resolved and implemented
and Recommendation 2 resolved but not implemented. Accordingly,
Recommendation 2 will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation.



                                         9
              CLASSIFICATION OF MONETARY AMOUNTS

                                             Funds To Be Put
           Finding Area                       To Better Use

Operation and Maintenance
 Overhead Recovery (annual)                           $18,000
 Pump Repair Financing                              1,000,000

Billing and Collection
 Unassessed Interest (3-year amounts)                 52,400
 Billing Delays (3-year amounts)                      18,000

   Total




                                        10
                                       MEMORANDUM

To:        Office of Inspector General
             Attention: Assistant Inspector General for Audits




Subject: Draft Audit Report on Recovery of Operation and Maintenance Costs, Columbia
          Basin Project, Bureau of Reclamation (Assignment No. W-IN-BOR-002-94)

The Bureau of Reclamation offers the following comments in response to the
recommendations in the subject report.

That the Commissioner, Bureau of Reclamation, ensure that the Pacific Northwest Region:

Recommendation A. 1

Assesses the districts the full amount of Bureau-incurred overhead costs, relating to the
irrigation function, as reflected in the official accounting records for the Project.

      Response

      Concur. The overhead rate will be revised and adjusted to reflect Reclamation’s actual
      overhead associated with operation and maintenance activities to include costs relating to
      the irrigation function. Reclamation will change from the current freed-rate method to a
      percentage of direct costs that are linked to operation and maintenance activities
      performed to supply water to the irrigation districts.

      The target date for completion of this effort is October 1, 1996. The responsible official
      is the Regional Director, Pacific Northwest Region.

Recommendation A.2

Require the districts to pay the irrigation related costs associated with pump replacements.

      Response

      Concur. See response to A.3.
                                                 11
                                                                                           APPENDIX 2
                                                                                           Page 2 of 7

                                                                                                    2

 Recommendation A.3

 Computes the amount of operation and maintenance costs applicable to the districts based on
 the actual direct and indirect cost of performing such work on the pumps.

      Response

      Concur. Reclamation operates the Grand Coulee complex, including the pumping plant
      and all the pumps therein, for multiple-use objectives. The irrigation related costs
      associated with the pump replacement and the operation and maintenance of the
      pumping plant will be determined and charged to the districts.

     The current allocation formula and methodology was developed to distribute costs
     equitably while allowing the United States to both meet its contractual commitments to
     the districts and operate the total system in an effective and efficient manner.
     Reclamation does not agree that the current allocation formula and methodology resulted
     in inappropriate irrigation subsidies as estimated in the draft report (Appendix 1).
     However, Reclamation does believe that a new procedure which assigns actual direct
     and indirect costs would provide a greater degree of certainty that irrigation related costs
     are being borne by the districts.

     The following target dates and steps are being established to implement
     Recommendations A.2 and A.3:

          By October 1995. meet with the districts to establish an interim rate for 1996.
          Advise the districts of the findings of this audit and establish a committee or work
          group with district participation to develop procedures to implement the
          recommendations.

          By October 1996, develop a model (including criteria, procedures. data base, etc.)
          to identify actual direct and indirect pumping plant costs related to irrigation.

          By October 1997, test the new model, including comparison of results to current
          methodology. Refine the model and procedures as needed and utilize in setting the
          diversion rate for future periods.

     The target date for completion is October 30, 1997, with interim target dates as
     indicated above. The responsible official is the Regional Director, Pacific Northwest
     Region.

Recommendation A.4

Documents the reasons for, and the financial impact of, any concessions agreed to in
negotiations on irrigation operation and maintenance cost recovery for the 1995 through 1999
agreement period and subsequent periods.


                                                12
                                                                                            APPENDIX 2
                                                                                            Page 3 of 7

                                                                                                    3

      Response

      Concur. Reclamation will document and deterrnine the financial impacts of concessions,
      if any, that result from the rate-setting meetings with the irrigation districts.

     The target date for completion is October 1, 1996. The responsible official is the
     Regional Director, Pacific Northwest Region.

Recommendation B. 1

Establishes billing time frames for Regional and field office personnel to process annual
irrigation repayment and operation and maintenance assessments to meet contractual
requirements. If such billings cannot be processed timely because of a lack of actual expense
information, the Region should be required to use estimated information for billings and
adjust to actual costs in future bills.

     Response

     Complied. The Pacific Northwest Region and field offices have developed and
     implemented procedures to ensure that billings for operation and maintenance are issued
     in a timely manner so payments can be made by the contract due dates. Attached is a
     copy of the procedures.

Recommendation B.2

Assesses late payment interest charges on all billings and collect interest charges on late
payments. including those identified in our December 1991 report.

     Response

     Concur. Reclamation’s Pacific Northwest Regional Finance Office will assess and
     collect interest charges on late payments for billings to the Columbia Basin Districts as
     appropriate and as provided for in the agreements with the irrigation districts.
     Procedures have been established to ensure that, in the future, interest charges on late
     payments will be billed in a timely manner (see response to Recommendation B. 1).
     Billing statements for fiscal year 1995 reflecting the region’s revised billing procedures
     have been issued to water users. All fiscal year 1995 billing statements reflected actual
     expense information.

     Reclamation will review the facts and circumstances regarding the retroactive late
     charges identified in the report. A portion of those charges is likely attributable to
     system problems and other difficulties which resided in Reclamation. Reclamation will
     initiate efforts, as appropriate, to collect those charges which are attributable to actions
     (or lack thereof) of the districts.



                                                 13
                                                                                           APPENDIX 2
                                                                                           Page 4 of 7

                                                                                                4

      The target date for completion is October 1. 1996. The responsible official is the
      Regional Director. Pacific Northwest Region.

If you have any questions or require additional information, please contact Luis Maez at
(303) 236-3289, extension 245.




Attachment

cc:   Assistant Secretary - Water and Science, Attention: Margaret Carpenter
      Office of Financial Management, Attention: Wayne Howard
        (w/o att to each)




                                              14
                                                             APPENDIX 2
                                                             Page 5 of 7




EPH-2000
FIN-6.00/PRJ-5.00


                                 MEMORANDUM
To :          Regional Director, Boise ID)
                Attention: PN-1820
              Upper Columbia Area Office, Yakima WA
                Attention: UCA-1700
From :        William D. Gray
              Manager, Ephrata Field Office
Subject:      Reserved Works Billing Procedures
The Office of Inspector General, in their draft report on
Recovery of Operation and Maintenance Costs for the Columbia
Basin Project, noted a recurring problem in the lateness of
billings to the irrigation districts. The process which results
in the billing involves the Region, Upper Columbia Area, and the
Ephrata Field Office.
Attached is a narrative which has been developed and reviewed by
the various offices identifying the information or work product
needed from each office to complete the yearly budget/billing
cycle for the Reserved Works!. As we work through this coming
year, please note any changes or additions which need to be made
to the document.




Attachments

cc:      Regional Director, Boise ID
              Attention: PN-1824 and PN-1828 (both w/encl)




                                     15
                                                             APPENDIX 2
                                                             Page 6 of 7


  BILLING STEPS FOR COLUMBIA BASIN PROJECT RESERVED WORKS

Article 43 of the Amendatory Repayment Contracts between the
East , South, and Quincy-Columbia Basin Irrigation Districts
states, “That no penalty shall be charged to or be paid by the
District on any delinquent installment or charge unless such
delinquency continues for more than 30 days:   provided, further,
That said 30 days shall not start within 20 days of receipt of
billings. ” Based on this language we will need to send the
operation and maintenance billings to the Districts by March 10
in order to receive payment by April 30 for the first half
billing and May 10 in order to receive payment by June 30.

Backing into our billing based on the above condition will
require the following schedule and steps.

Mid August, Ephrata Field Office sends a letter to the Reserved
Works Committee outlining the coming calendar year budget.
Example:  August 15, 1991 letter to the Chairman of the Reserved
Works Committee Subject:   FY92 Reserved Works Budget. This
notifies the Districts of the estimated power charge and
estimated O&M by September 1 which is required by Article 40d of
the Repayment Contract.

In early September, a letter is sent to the Districts providing
the O&M Budget for the following CY.  This letter takes into
account any input from the Reserved Works Committee and changes
that Reclamation might have made.  See attached September 6, 1991
letter as an example.  This also notifies the Districts that they
will be billed early in the following year using actuals from the
prior year.

By the first week of March, Water Diversion Records for the prior
year are completed by the Ephrata Field Office, EPH-2900 (Francis
Jensen) and transmitted to the Regional Director, Attention:
PN-1824 (Diane Pride) . This provides the actual water use and
the percentage of use by each district which is needed for the
breakdown of cost and QB revenue split for the billing.  With
this information, PN-1824 completes the Status of the Diversion
Rate and provides the data to PN-1828 (Kay Henson) who processes
the billing and sends the first and second half to the Districts
by March 10 and May 10, respectively.

If the Ephrata Field Office cannot meet this date, EPH-2900 will
notify PN-1824 and/or PN-1828 by March 1 and provide an estimate
of water use based on the preceding year’s use.  PN-1828 will
issue the first half estimated billing based on this estimate.
The second half billing will be adjusted based on the actual when
the calculations are completed.




                                16
                                                            APPENDIX 2
                                                            Page 7 of 7

                                                                   2

After updating the data based on actual water use, PN-1824
transmits by memorandum the 10 enclosures detailed in the
attached memorandum dated March 16, 1995, to the Ephrata Field
Office .

The Ephrata Field Office Budget Assistant and Area Office Budget
Officer complete the “Estimate of O&M For Calendar Year 199_,
"Distribution of 199_ Estimated Cost (Based on 199_ Actual
Diversions) ,“ "Quincy Ground Water Subarea” revenue status, and
“Potholes Bank Storage” revenue status.   Data for the last two
items is developed by the Ground Water Administrative Assistant
EPH-2606 (Jean Cheesman) .  These are combined with the incoming
data from the Region and sent to the Districts.   See attached
example dated March 24, 1995. This letter also provides the
water use and percent breakdown per district and historically has
been sent just before the first half billings.   There are 13
attachments to this letter, Boise prepares 1-5 and 9-13.   Ephrata
and the Area Office prepares 6-8.

If the water diversion information is not available and an
estimate is used, the above-referenced letter cannot be completed
and sent prior to the first half billing. Attachment 1 of this
letter requires actual use data and ultimately determines the
surplus or deficit from the preceding year by which the billing
will be adjusted.

This process should result in billings to the Districts and paid
by April 30 and June 30, respectively.




                                17
                                                             APPENDIX 3



     STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
   Reference            status                  Action Required
 Al, A.2, A.3,   Resolved; not        No further response to the Office of
 A.4, and B.2    implemented.         Inspector General is required. The
                                      recommendations will be referred to
                                      the Assistant Secretary for Policy,
                                      Management a n d B u d g e t f o r
                                      tracking of Implementation.
     B.1         Implemented.         No further action is required.




                                 18
                 ILLEGAL OR WASTEFUL ACTIVITIES
                     SHOULD BE REPORTED TO
               THE OFFICE OF INSPECTOR GENERAL BY:


 Sending written documents to:                                Calling:


                       Within the Continental United States


 U.S. Department of the Interior                       Our 24-hour
 Office of Inspector General                           Telephone HOTLINE
 P.O. Box 1593                                         1-800-424-5081 or
 Arlington, Virginia 22210                             (703) 235-9399

                                                      TDD for the hearing impaired
                                                       (703) 235-9403 or
                                                       1-800-354-0996


                      Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                       (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                               North Pacific Region
U.S. Department of the Interior                       (700) 550-7279 or
Office of Inspector General                           COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers
1-800424-5081
TDD 1-800-354-09?6
FTS/Commercial Numbers
703-235-9399
TDD 703-235-9403


HOTLINE
P.O. BOX 1593
Arlington, Virginia 22210




                    “.


                         .
